TN

_ CockE

* E-Mail Address:
Omaha, Nebraska 68102-1214 L e 8g a 1 B Be eis contact@cocklelegalbriefs.com
1-800-225-6964 Web Site
(402) 342-2831 www.cocklelegalbriefs.com
Fax: (402) 342-4850
No.
JONAS YBARRA, JR.,
Petitioner,

ve
TEXAS HEALTH AND HUMAN SERVICES
COMMISSION; ADELA M. GONZALEZ;
JAY WONG; JORGE PERRY;
FERNANDO DE LUNA; MARIO GOMEZ,
Respondents.

CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h), I certify that the PETITION FOR WRIT OF
CERTIORARI in the above entitled case complies with the typeface requirement of Supreme Court
Rule 33.1(b), being prepared in New Century Schoolbook 12 point for the text and 10 point for the

footnotes, and this brief contains 4579 words, excluding the parts that are exempted by Supreme
Court Rule 33.1(d), as needed.

Subscribed and sworn to before me this 17th day of March, 2020.
Tam duly authorized under the laws of the State of Nebraska to administer oaths.

PATRICIA BILLOTTE

‘
General Notary
sis ochaeiais Ze C Clit Quid hk, Glele
My Commission Expires Nov 24, 2020 €

Notary Public Affiant 39446

 
